National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                       November 16, 2010


 TO:          Jonathan Pettus
              Chief Information Officer, Marshall Space Flight Center

              Neil Rodgers
              Deputy Chief Information Officer/NASA Enterprise Applications
              Competency Center, Marshall Space Flight Center


 FROM:        Jim Morrison
              Assistant Inspector General for Audits


 SUBJECT: Transmittal of the Final Report, “Information Technology Management
          Letter Comments,” Prepared by Ernst & Young LLP in Connection with the
          Audit of NASA’s Fiscal Year 2010 Financial Statements (IG-11-007-R;
          Assignment No. A-10-005-02)


 The Office of Inspector General contracted with the independent public accounting firm
 Ernst & Young LLP (EY) to audit NASA’s financial statements in accordance with the
 Government Accountability Office’s Government Auditing Standards and Office of
 Management and Budget’s Bulletin No. 07-04, “Audit Requirements for Federal
 Financial Statements,” as amended.

 As part of the NASA consolidated financial statement audit, EY performed procedures
 to assess the effectiveness of the information technology control environment (general
 and application controls) associated with NASA’s core financial systems. Enclosed is the
 subject report, which contains the results of the assessment.

 The Associate Director of Marshall Space Flight Center (MSFC) provided comments on
 the draft report, which were considered by EY when preparing the final report.

 Management partially concurred with the two recommendations associated with the
 report’s open findings. We will work with management to resolve these
 recommendations. MSFC concurred with the other two recommendations, which will be
 closed upon completion and verification of management’s corrective actions.

 EY is responsible for the enclosed report and the conclusions expressed therein.
 Accordingly, we do not express an opinion on NASA’s financial statements, internal
 controls over financial reporting, or compliance with certain laws and regulations.

                 Enclosure Has Been Redacted for Public Release
                                                                                          2


We appreciate the courtesies extended during the assessment. If you have any questions,
or need additional information, please contact Mark Jenson, Financial Management
Director, Office of Audits, at 202-358-0629.


Enclosure


cc: Linda Cureton
    NASA Chief Information Officer




                 Enclosure Has Been Redacted for Public Release
REDACTED FOR PUBLIC RELEASE




                 INFORMATION TECHNOLOGY
                 MANAGEMENT LETTER COMMENTS

                 Prepared for:

                 National Aeronautics and Space Administration
                 Office of Inspector General
                 300 E Street, S.W.
                 Washington, D.C.

                 Prepared by:

                 Ernst & Young LLP
                 Information Technology Risk & Assurance
                 8484 Westpark Drive
                 McLean, VA 22102

                 Fiscal Year Ended September 30, 2010
     TABLE OF CONTENTS
     INTRODUCTION AND NASA’s RESPONSE ........................................................................ 2
     BACKGROUND ................................................................................................................. 3
     NASA FINANCIAL SYSTEMS OVERVIEW ......................................................................... 3
     SCOPE ............................................................................................................................. 4
     SUMMARY OF FINDINGS ................................................................................................. 5
       Open Findings .............................................................................................................. 6
         Access Control (AC) .................................................................................................. 6
       Resolved Findings ........................................................................................................ 7
         Access Controls (AC) ................................................................................................ 7
       Status of FY 2009 Findings .......................................................................................... 8
         Access Controls (AC) ................................................................................................ 8
         Configuration Management (CM) ................................................................................ 9
     Appendix A – Detailed Open Findings ............................................................................. A1
     Appendix B – Detailed Resolved Findings ....................................................................... B1




Page 1
     INTRODUCTION
     Ernst & Young LLP (EY) has completed its assessment of certain domains of the Information
     Technology (IT) Controls Assessment conducted during fiscal year (FY) 2010 at the National
     Aeronautics and Space Administration (NASA). The methodology used for the IT controls
     assessment was based on the United States Government Accountability Office (GAO)
     Federal Information System Controls Audit Manual (FISCAM). The EY IT Risk and Assurance
     team conducted an IT General Controls Review (ITGCR) following FISCAM’s six domains:
     Security Management (SM), Access Controls (AC), Configuration Management (CM),
     Segregation of Duties (SD), Contingency Planning (CP) and Application Controls (AS). The
     review was conducted as part of the audit of NASA’s financial statements for the FY ended
     September 30, 2010.




     NASA’s Response
     A draft of this report was provided to management for them to review and respond to the
     reportable findings and recommendations. EY obtained and reviewed NASA’s responses to
     the findings. NASA management concurred with all of the findings except for the two noted
     below, which they partially concurred with:
              - Access Control Finding #1; NASA management does not agree with the portion
                  of the finding related to the SAP Oracle database. We agree with the fact that
                  forcing the SAP account password to expire could cause the application to stop
                  working. Furthermore, the manual control to change this account’s password is
                  considered an effective control. However, the finding pertains to all other SAP
                  Oracle database accounts that currently do not enforce password expiration and
                  have no implications in doing so. EY recommends that such database accounts
                  be configured to systematically enforce password expiration.
              - Access Control Finding #2; NASA management partially concurs with this finding
                  and responded that there was a recertification process for MdM whereby all
                  accounts expired annually and had to be revalidated through the NASA Account
                  Management System (NAMS). However, EY validated that this control was not in
                  place during our test procedures. Additionally, the recommendation specifies
                  that the users and their access levels should be reviewed periodically for
                  appropriateness. As the action plan in response to this finding is in the process
                  of being implemented, EY would recommend a more frequent occurence than
                  annually as an enhanced control.
     In all other instances, NASA communicated that they have either remediated the condition
     or are conducting further research to determine a plan of action to mitigate the risk
     presented by the condition. EY considers the responses appropriate based on the
     reportable exceptions.




Page 2
REDACTED FOR PUBLIC RELEASE
     BACKGROUND
     IT general controls are the policies, procedures, and practices that apply to all or a large
     segment of an entity’s information systems to determine their proper operation. They
     impact the overall effectiveness and security of computer operations, rather than specific
     computer applications. IT general controls consist of the following critical elements:

         •   Security Management controls - to provide a framework and continuing cycle of
             activity for managing risk, developing security policies, assigning responsibilities,
             and monitoring the adequacy of computer-related controls.

         •   Access controls - to limit or detect access to computer resources (data, program,
             equipment, and facilities), thereby protecting these resources against unauthorized
             modification, loss, and disclosure.

         •   Configuration Management controls - to prevent implementation of unauthorized
             programs or modifications to existing programs.

         •   Segregation-of-duty controls - to provide policies, procedures, and an
             organizational structure to prevent one individual from controlling key aspects of
             computer-related operations and thereby conducting unauthorized actions or gaining
             unauthorized access to assets or records.

         •   Contingency Planning controls - to ensure that when unexpected events occur,
             critical operations continue without interruption or are promptly resumed, and
             critical and sensitive data are protected from destruction.

         •   Application controls – to ensure application software controls are properly
             configured to enforce management policies and procedures and to prevent users
             from bypassing key controls.

     Vulnerability assessment procedures were designed to remotely (via internet) as well as
     locally (within NASA’s Marshall Space Flight Center facilities) scan the designated targets
     and validate security configuration controls were in place to protect systems relevant to the
     financial statement audit. Our procedures included only non-destructive testing techniques
     (i.e., no files or data were modified or changed).



     NASA FINANCIAL SYSTEMS OVERVIEW
     The NASA Enterprise Applications Competency Center (NEACC) was created for an agency-
     wide transformation of NASA's business systems and processes to improve NASA's fiscal
     and management accountability.




Page 3
REDACTED FOR PUBLIC RELEASE
     The core financial system includes the following SAP modules: Standard General Ledger,
     Accounts Receivable, Accounts Payable, Purchasing, Cost Management, Materials
     Management and Integrated Asset Management Module (for NASA personal property). In
     addition to SAP, the NEACC is responsible for administering Metadata Manager (MdM), a
     subcomponent of the eBudget suite used to create and approve Work Breakdown Structure
     (WBS) elements that link the costs incurred/paid to the capital assets in Asset Accounting.
     Lastly, the Contractor Held Asset Tracking System (CHATS) application is managed by IT
     personnel at Goddard Space Flight Center (GSFC). This system is used by the top
     contractors (based on total value of their property balance) that are required to report their
     property balances on a monthly basis.

     SCOPE
     In connection with the audit of NASA’s FY 2010 financial statements, we conducted an IT
     general controls review of the IT processes related to the financial systems noted above,
     which support business processes that are linked to significant cycles in the financial
     statements. The IT controls assessment was conducted based on the guidance promulgated
     in the GAO FISCAM and Financial Audit Manual (FAM).

     A majority of administration activities for IT supporting the core financial module and MdM
     are performed at the NEACC; however, each center also performs certain control
     procedures related to access controls. These procedures include granting and terminating
     user access to the core financial module as well as managing network vulnerability
     assessments. We visited the following sites to test the IT security administration activities:
        • Marshall Space Flight Center, including the NEACC, in Huntsville, AL;
        • Langley Research Center in Hampton, VA;
        • Johnson Space Center in Houston, TX; and
        • Goddard Space Flight Center in Greenbelt, MD (to review CHATS).

     EY also performed the following procedures:
        • Followed-up on the FY 2009 audit findings
        • Performed a limited vulnerability assessment to assess external and internal
             vulnerabilities
        • Performed quarterly Journal Entry Computer Assisted Audit Techniques for the EY
             accounting team and;
        • Reviewed the various GAO/Office of Inspector General (OIG) reports and considered
             the corresponding findings and needs for improvements.




Page 4
REDACTED FOR PUBLIC RELEASE
     SUMMARY OF FINDINGS
     This section provides a brief summary of all findings noted during the current year audit as
     well as a status on FY 2009 findings. Note, the findings below do not include those
     identified through the penetration testing as they were communicated to management
     through a separate report prepared by EY and issued by the NASA OIG.

     Overall, the findings in this document are separated into three sections:

         1. Open Findings (detailed in Appendix A) are comprised of findings noted by EY in the
            current year, or in our follow-up on prior year findings, that were not resolved by
            NASA as of September 30, 2010. Either these findings are scheduled for resolution
            after September 30, 2010, or NASA has the recommendations under consideration.

         2. Resolved Findings (detailed in Appendix B) are comprised of findings noted by EY in
            the current year and deemed resolved based on management’s representation
            before September 30, 2010.

         3. Status of FY 2009 Findings provides a synopsis on status of FY 2009 EY IT findings
            as of September 30, 2010.

     In the past few years, we have noted a number of material weaknesses and significant
     deficiencies regarding the functioning of significant financial related controls at NASA. The
     level of risk associated with the IT issues noted below depends in part upon the extent to
     which financial related compensating controls (such as reconciliations and robust reviews of
     output) are in place and operating effectively during the audit period. Certain controls
     designed to detect errors or inappropriate processing may also not be executed in a manner
     that can be expected to identify errors which, while perhaps not material to the financial
     statements as a whole, may subject NASA to risks regarding safeguarding of assets. Within
     the context of overall weaknesses identified in the NASA control environment, the
     information technology related issues discussed below merit continued management focus.

     It is noteworthy that NASA management has taken significant steps to resolve a majority of
     the FY 2009 findings.

     A brief summary of the findings (open and resolved) as well as the status on FY 2009
     findings is included below.




Page 5
REDACTED FOR PUBLIC RELEASE
     Open Findings

     The following findings were noted during our fieldwork and have not been resolved as of
     September 30, 2010. The resolution of these issues is either scheduled for later than
     September 30, 2010, or NASA has the recommendations under consideration. For complete
     details of the open findings, refer to Appendix A.


     Access Control (AC)

         #       Condition
             1   In performing a review of the Oracle database infrastructure supporting SAP
                 and MdM, EY identified the following configuration settings that may not
                 adequately protect the security of the database:




             2   Based on a review of the logical access user administration process for the
                 MdM application, it was noted that a formal process is not in place to
                 periodically recertify users at the application-level for appropriateness based
                 on current job responsibilities.




Page 6
REDACTED FOR PUBLIC RELEASE
     Resolved Findings

     This section is comprised of findings noted by EY in the current year and deemed resolved
     based on management’s representation before September 30, 2010 (current year audit).
     For complete details of the resolved finding, refer to Appendix B.


     Access Controls (AC)

         #       Condition
             3   In performing a review of the Windows 2003 infrastructure supporting the
                 NASA Data Center (NDC) domain, EY identified more than 300 dormant
                 accounts that were enabled and had not been logged into for more than 90
                 days.
             4   In performing a review of the Oracle database infrastructure supporting
                 CHATS, EY identified two privileged accounts
                 used by database administrators that are assigned the default profile. The
                 default profile does not enforce strong password controls, such as maximum
                 lifetime, minimum length, and account lockout.




Page 7
REDACTED FOR PUBLIC RELEASE
     Status of FY 2009 Findings

     This section provides a synopsis on the status of FY 2009 EY findings as of September 30,
     2010. The detailed follow-up on each FY 2009 finding is documented in a separate report to
     NASA OIG.

     Access Control (AC)

         #       Condition                                                 Status
             1   External:                                                 Partially Resolved1
                 During EY’s penetration testing into the Marshall Space
                 Flight Center (MSFC) network from EY’s penetration
                 testing lab in Baltimore, Maryland, we noted a server
                 that allowed access to the Documentum web application
                 through auto-authentication. By accessing a particular
                 file on the server, it was possible to view different
                 Documentum applications.
                 Internal:
                 During EY’s penetration testing into the MSFC network
                 while being physically connected to the MSFC network,
                 we found one web server running a GSFC web
                 application which allowed access with no password.
                 Finally, we discovered two Z/VM hosts that allowed
                 access with passwords equivalent to the username.
                 These hosts were only accessible through a web
                 interface.
             2   During EY’s penetration testing into the Marshall              Resolved
                 Space Flight Center (MSFC) network while being
                 physically connected to the MSFC network, we found
                 one Virtual Networking Computer (VNC) server
                 running which allowed access with a password of
                 “password”. This host appeared to be a training
                 computer.
             3   External:                                                      Resolved
                 During EY’s penetration testing into the Marshall
                 Space Flight Center (MSFC) network from EY’s
                 penetration testing lab in Baltimore, Maryland, we
                 noted five internet protocol (IP) addresses that
                 redirected to a single web application called NASA
                 Acquisition Internet Service (NAIS). This application
                 had a feedback page that did not properly validate

     1
       A finding was noted in the current year penetration testing report related to the External
     portion of this condition. As previously noted, the results of the penetration testing were
     communicated to management in a separate report and are not included in the management
     letter.
Page 8
REDACTED FOR PUBLIC RELEASE
         #       Condition                                                 Status
                 input data. Since this application communicated with
                 a back-end MySQL database and with the improper
                 checks on user input, we were able to determine that
                 application was vulnerable to an attack called
                 Structured Query Language (SQL) injection. This web
                 application was only viewable over Hypertext Transfer
                 Protocol Secure (HTTPS) which means that all of the
                 data, including an attack, would be encrypted. This
                 implies that Network Intrusion Detection Systems
                 (NIDS) would probably not be able to alert on this type
                 of attack. Due to the defined scope of penetration
                 testing which was performed in support of the financial
                 statement audit, EY did not conduct a web application
                 assessment so we could not determine if there are
                 other web-based vulnerabilities within the NAIS
                 application.

                 Internal:
                 During EY’s penetration testing into the MSFC network
                 while being physically connected to the MSFC network,
                 we found the same NAIS web application and
                 associated SQL injection vulnerability.




     Configuration Management (CM)

         #       Condition                                                 Status
             4   During testing of the Contractor Held Asset Tracking           Resolved
                 System (CHATS) at Goddard Space Flight Center
                 (GSFC), we were unable to determine a complete
                 population of changes to the CHATS application.
                 Although configuration management is done within
                 Polytron Version Control System (PVCS), a complete
                 population of changes could not be obtained nor relied
                 upon due to dependence on manual entry.




Page 9
REDACTED FOR PUBLIC RELEASE
          Appendix A – Detailed Open Findings




Page A1
     Access Control (AC)
      Finding # 1

     Condition
     In performing a review of the Oracle database infrastructure supporting SAP and MdM, EY
     identified the following configuration settings that do not adequately protect the security of
     the database:
         •
         •
         •
         •
         •

     While IT management has implemented a manual process to change the ‘sapr3’ account
     password on the database supporting SAP, this does not require the other database account
     passwords to be changed.

     Cause
     The MdM application and supporting infrastructure were inherited by the NEACC and as a
     result, the standard Oracle database configuration was not applied. As it relates to the SAP
     database, management does not rely on the systematic control to enforce password
     expiration. Instead, there is an automated Activity Request within the Remedy ticketing
     system to remind database administrators to change passwords every 60 days.

     Criteria

     Federal Information Security Management Act of 2002 (FISMA) requires that all
     automated information systems processing or storing sensitive information provide
     adequate security controls.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Identification and Authentication, IA-5: Authenticator Management
     addresses the following password requirements:

     Control: The organization manages information system authenticators for users and devices
     by:
         a) Verifying, as part of the initial authenticator distribution, the identity of the
            individual and/or device receiving the authenticator;
         b) Establishing initial authenticator content for authenticators defined by the
            organization;
         c) Ensuring that authenticators have sufficient strength of mechanism for their
            intended use;
         d) Establishing and implementing administrative procedures for initial authenticator
            distribution, for lost/compromised or damaged authenticators, and for revoking
            authenticators;
         e) Changing default content of authenticators upon information system installation;
         f) Establishing minimum and maximum lifetime restrictions and reuse conditions for
            authenticators (if appropriate);
         g) Changing/refreshing authenticators [Assignment: organization-defined time period
            by authenticator type];
         h) Protecting authenticator content from unauthorized disclosure and modification; and


Page A2
          i)   Requiring users to take, and having devices implement, specific measures to
               safeguard authenticators.


          Control Enhancements (note: bolded items directly apply to this condition):
          (1) The information system, for password-based authentication:

               a) Enforces minimum password complexity of [Assignment: organization-defined
                  requirements for case sensitivity, number of characters, mix of upper-case
                  letters, lower-case letters, numbers, and special characters, including minimum
                  requirements for each type];
               b) Enforces at least a [Assignment: organization-defined number of changed
                  characters] when new passwords are created;
               c) Encrypts passwords in storage and in transmission;
               d) Enforces password minimum and maximum lifetime restrictions of
                  [Assignment: organization-defined numbers for lifetime minimum, lifetime
                  maximum]; and
               e) Prohibits password reuse for [Assignment: organization-defined number]
                  generations.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Configuration Management, CM-6: Configuration Settings addresses
     the following configuration settings:

     Control: The organization:
        a) Establishes and documents mandatory configuration settings for information
            technology products employed within the information system using [Assignment:
            organization-defined security configuration checklists] that reflect the most
            restrictive mode consistent with operational requirements;
        b) Implements the configuration settings;
        c) Identifies, documents, and approves exceptions from the mandatory configuration
            settings for individual components within the information system based on explicit
            operational requirements; and
        d) Monitors and controls changes to the configuration settings in accordance with
            organizational policies and procedures.

     NASA Procedural Requirements (NPR) 2810.1A, “Security of Information Technology,”
     Section 20.2.1, states that “NASA shall ensure that all access controls identified in NIST SP
     800-53, Recommended Security Controls for Federal Information Systems, have been
     implemented including, but not limited to:

               a. Implementing logical access controls on NASA systems and applications based on
               impact levels, policy, and permissions established by the management official
               responsible for the particular system, application, subordinate systems, or group of
               systems.”

     In addition, Section 2.3.5.2 of NPR 2810.1A, requires the information system security
     official to "periodically use tools to verify and/or monitor compliance with the NASA
     password policy for systems under their authority."

     Effect
     Not enforcing strong passwords and other security settings at the database-level could
     result in unauthorized access to financial data. However, the risk associated with this
     condition is minimized by the multiple layers of authentication required in order to gain

Page A3
     access to the production Oracle databases. A user must authenticate to the NASA Data
     Center (NDC) domain followed by the UNIX host.


     Recommendation
     We recommend that NEACC Oracle database administrators configure password, auditing,
     and default security configurations on the production SAP database to be in-line with the
     standard build documents and NIST SP 800-53 revision 3. In addition, we recommend that
     NEACC management treat inherited systems, such as MdM, similar to those built in-house
     and implement a process to assess key system configurations to ensure security settings
     are appropriate.




Page A4
      Finding # 2

     Condition
     Based on a review of the logical access user administration process for the Metadata
     Manager (MdM) application, it was noted that a formal process is not in place to periodically
     recertify users at the application-level for appropriateness based on current job
     responsibilities.

     Cause
     The current policy documents do not require the organization to perform a periodic review
     of users and their access levels for the MdM application. As a result, a user recertification
     process was never designed and implemented for MdM.

     Criteria

     Federal Information Security Management Act of 2002 (FISMA) requires that all
     automated information systems processing or storing sensitive information provide
     adequate security controls.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Access Control, AC-2: Account Management addresses the following
     password requirements:

     Control: The organization manages information system accounts, including: (note: bolded
     items directly apply to this condition)

          a) Identifying account types (i.e., individual, group, system, application,
             guest/anonymous, and temporary);
          b) Establishing conditions for group membership;
          c) Identifying authorized users for the information system and specifying access
             privileges;
          d) Requiring appropriate approvals for requests to establish accounts;
          e) Establishing, activating, modifying, disabling, and removing accounts;
          f) Specifically authorizing and monitoring the use of guest/anonymous and temporary
             accounts;
          g) Notifying account managers when temporary accounts are no longer required and
             when information system users are terminated, transferred, or information system
             usage or need-to know/need-to-share changes;
          h) Deactivating: (i) temporary accounts that are no longer required; and (ii) accounts of
             terminated or transferred users;
          i) Granting access to the system based on: (i) a valid access authorization; (ii) intended
             system usage; and (iii) other attributes as required by the organization or associated
             missions/business functions; and
          j) Reviewing accounts [Assignment: organization-defined frequency].

     NASA Procedural Requirements (NPR) 2810.1A, “Security of Information Technology,”
     Section 20.2.1, states that “NASA shall ensure that all access controls identified in NIST SP
     800-53, Recommended Security Controls for Federal Information Systems, have been
     implemented.”

     Effect
     Lack of a periodic access review could result in users retaining unnecessary, or
     inappropriate access. However, the risk that this condition could compromise NASA’s


Page A5
     financial data is considered to be low because EY performed sample-based testing to
     validate the appropriateness of MdM users and did not identify any exceptions.

     Recommendation
     We recommend that NEACC management update their policy to include periodic user access
     reviews for the MdM application. In order to comply with the updated policy, MdM system
     administrators should implement a formal process to perform a user access recertification
     on a periodic basis (frequency to be defined by management).




Page A6
          [This page intentionally left blank]




Page A7
          Appendix B – Detailed Resolved Findings




Page B1
     Access Control (AC)

      Finding # 3

     Condition
     In performing a review of the Windows 2003 infrastructure supporting the NASA Data
     Center (NDC) domain, EY identified more than 300 dormant accounts that were enabled and
     had not been logged into for more than 90 days.

     Cause
     NDC domain administrators do not have a process in place to identify and disable/remove
     dormant accounts. In this specific instance, the organization was undertaking a major
     network restructuring that involved moving the NASA center domains underneath one NASA
     domain. At the time of our testing, the domain accounts had not been cleaned up leading to
     the identification of this condition.

     Criteria

     Federal Information Security Management Act of 2002 (FISMA) requires that all
     automated information systems processing or storing sensitive information provide
     adequate security controls.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Access Control, AC-2: Account Management addresses the following
     password requirements:

     Control: The organization manages information system accounts, including: (note: bolded
     items directly apply to this condition)

          a) Identifying account types (i.e., individual, group, system, application,
             guest/anonymous, and temporary);
          b) Establishing conditions for group membership;
          c) Identifying authorized users for the information system and specifying access
             privileges;
          d) Requiring appropriate approvals for requests to establish accounts;
          e) Establishing, activating, modifying, disabling, and removing accounts;
          f) Specifically authorizing and monitoring the use of guest/anonymous and temporary
             accounts;
          g) Notifying account managers when temporary accounts are no longer required and
             when information system users are terminated, transferred, or information system
             usage or need-to know/need-to-share changes;
          h) Deactivating: (i) temporary accounts that are no longer required; and (ii) accounts
             of terminated or transferred users;
          i) Granting access to the system based on: (i) a valid access authorization; (ii) intended
             system usage; and (iii) other attributes as required by the organization or associated
             missions/business functions; and
          j) Reviewing accounts [Assignment: organization-defined frequency].

          Control Enhancements:
          (3) The information system automatically disables inactive accounts after [Assignment:
               organization-defined time period].


Page B2
     NASA Procedural Requirements (NPR) 2810.1A, “Security of Information Technology,”
     Section 20.2.1, states that “NASA shall ensure that all access controls identified in NIST SP
     800-53, Recommended Security Controls for Federal Information Systems, have been
     implemented.”

     Effect
     The existence of dormant accounts on the NDC domain increases the risk that the accounts
     are compromised and unauthorized access may occur without detection. However, this
     condition does not directly compromise NASA’s financial data because unauthorized access
     to the NDC domain does not grant the user access to the core financial systems due to
     layered security approach involving authentication controls at the network (password
     controls and Demilitarized Zone (DMZ) set up), and application level.

     Recommendation
     We recommend that NEACC domain administrators implement a process, whether
     automated or manual, to identify and disable dormant NDC domain accounts.




Page B3
      Finding # 4

     Condition

     In performing a review of the Oracle database infrastructure supporting CHATS, EY
     identified two privileged accounts                                     used by database
     administrators that are assigned the default password profile. The default password profile
     does not enforce strong password controls such as maximum lifetime, minimum length, and
     account lockout.

     Cause
     The privileged accounts in question were primarily used for exporting data using a datadump
     utility. As a result, the standard Oracle database password profile, which all other database
     accounts are set to, was not applied. Additionally, the                  account is no longer
     required and can be removed from the database.

     Criteria

     Federal Information Security Management Act of 2002 (FISMA) requires that all
     automated information systems processing or storing sensitive information provide
     adequate security controls.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Identification and Authentication, IA-5: Authenticator Management
     addresses the following password requirements:

     Control: The organization manages information system authenticators for users and devices
     by:
         j) Verifying, as part of the initial authenticator distribution, the identity of the
            individual and/or device receiving the authenticator;
         k) Establishing initial authenticator content for authenticators defined by the
            organization;
         l) Ensuring that authenticators have sufficient strength of mechanism for their
            intended use;
         m) Establishing and implementing administrative procedures for initial authenticator
            distribution, for lost/compromised or damaged authenticators, and for revoking
            authenticators;
         n) Changing default content of authenticators upon information system installation;
         o) Establishing minimum and maximum lifetime restrictions and reuse conditions for
            authenticators (if appropriate);
         p) Changing/refreshing authenticators [Assignment: organization-defined time period
            by authenticator type];
         q) Protecting authenticator content from unauthorized disclosure and modification; and
         r) Requiring users to take, and having devices implement, specific measures to
            safeguard authenticators.

          Control Enhancements (note: bolded items directly apply to this condition):
          (1) The information system, for password-based authentication:

             f)   Enforces minimum password complexity of [Assignment: organization-defined
                  requirements for case sensitivity, number of characters, mix of upper-case
                  letters, lower-case letters, numbers, and special characters, including minimum
                  requirements for each type];

Page B4
            g) Enforces at least a [Assignment: organization-defined number of changed
               characters] when new passwords are created;
            h) Encrypts passwords in storage and in transmission;
            i) Enforces password minimum and maximum lifetime restrictions of
               [Assignment: organization-defined numbers for lifetime minimum, lifetime
               maximum]; and
            j) Prohibits password reuse for [Assignment: organization-defined number]
               generations.

     National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
     Revision 3: Recommended Security Controls for Federal Information Systems and
     Organizations, Family: Configuration Management, CM-6: Configuration Settings addresses
     the following configuration settings:

     Control: The organization:
        e) Establishes and documents mandatory configuration settings for information
            technology products employed within the information system using [Assignment:
            organization-defined security configuration checklists] that reflect the most
            restrictive mode consistent with operational requirements;
        f) Implements the configuration settings;
        g) Identifies, documents, and approves exceptions from the mandatory configuration
            settings for individual components within the information system based on explicit
            operational requirements; and
        h) Monitors and controls changes to the configuration settings in accordance with
            organizational policies and procedures.

     NASA Procedural Requirements (NPR) 2810.1A, “Security of Information Technology,”
     Section 20.2.1, states that “NASA shall ensure that all access controls identified in NIST SP
     800-53, Recommended Security Controls for Federal Information Systems, have been
     implemented including, but not limited to:

            a. Implementing logical access controls on NASA systems and applications based on
            impact levels, policy, and permissions established by the management official
            responsible for the particular system, application, subordinate systems, or group of
            systems.”

     In addition, Section 2.3.5.2 of NPR 2810.1A, requires the information system security
     official to "periodically use tools to verify and/or monitor compliance with the NASA
     password policy for systems under their authority."

     Effect
     Not enforcing strong password settings for privileged accounts at the database-level could
     increase the risk in unauthorized access to financial data. However, the risk associated with
     this condition is minimized due to limited number of privileged account accompanied by the
     multiple layers of authentication required in order to gain access to the production Oracle
     database. A user must authenticate to the NASA Data Center (NDC) domain followed by the
     Linux host.

     Recommendation
     We recommend that GSFC Oracle database administrators configure the             account
     to be assigned the standard password profile, making it in-line with password control
     requirements defined in NIST SP 800-53 revision 3. Additionally, we recommend the
                   account be removed from the database if it is no longer required.



Page B5
